         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Paducah Gaseous Diffusion Plant's
Waste Diversion Efforts




OAS-M-13-01                          March 2013
                                  Department of Energy
                                    Washington, DC 20585
                                         March 15, 2013


MEMORANDUM FOR THE MANAGER, PORTSMOUTH/PADUCAH PROJECT OFFICE




FROM:                    Rickey R. Hass
                         Deputy Inspector General
                          for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Paducah Gaseous Diffusion
                         Plant's Waste Diversion Efforts"

INTRODUCTION AND OBJECTIVE

Executive Order 13423, Strengthening Federal Environmental, Energy, and Transportation
Management, mandates that each Federal facility maintain a cost-effective waste prevention and
recycling program. Further, Executive Order 13514, Federal Leadership in Environmental,
Energy, and Economic Performance, requires that Federal agencies achieve a 50 percent
diversion rate for construction and demolition materials and debris and a 50 percent rate for
non-hazardous solid waste by the end of Fiscal Year (FY) 2015. Waste diversion includes the
prevention and reduction of generated waste through recycling, reusing or composting.
Diverting materials from the waste stream generates a host of benefits including conserving
energy, reducing disposal costs and contributing to a cleaner, safer environment.

The Paducah Gaseous Diffusion Plant (Paducah) operations are carried out by three prime
contractors and each plays a contributing role in the Department of Energy's overall waste
diversion effort. Specifically, Paducah's three contractors are responsible for infrastructure
support services, environmental remediation, and operation of the Depleted Uranium
Hexafluoride Conversion Facility, respectively. During FY 2011, Paducah reported that it
generated 340 metric tons of non-hazardous solid waste, including debris from construction and
demolition projects. Because of the environmental, financial and social benefits of reducing the
amount of waste sent to the landfill, we initiated this audit to determine whether Paducah is
effectively diverting materials from the waste stream. This is our third in a series of reports on
the Department's waste diversion efforts at select sites.

RESULTS OF AUDIT

Because of record keeping weaknesses, we could not determine whether Paducah was effectively
diverting materials from the waste stream. While Paducah reported that it had exceeded the
50 percent diversion goals, we found that the data supporting that calculation was unreliable. In
particular, we noted that Paducah lacked an accurate method of measurement of waste generation
                                                 2


and disposal. Further, we found that the contractors had not always assessed or acted on all
opportunities to divert waste from landfill disposal and were inconsistent in their diversion
efforts.

The problems we identified occurred, in part, because Paducah did not place sufficient emphasis
on waste diversion. The individual assigned to coordinate such activities as a collateral duty did
not ensure that data supporting diversion efforts was reliable. Also, Paducah had not assigned
one of its three contractors the lead role in coordinating activities, awarding recycling contracts,
and ensuring implementation of a consistent and comprehensive recycling program.

Notably, Paducah had established several recycling streams to divert materials from landfill
disposal and had taken action to increase waste diversion awareness. In particular, Paducah
established recycling streams for a number of materials including paper, concrete and aluminum
cans. However, due to the data concerns noted in our report, we could not evaluate the
effectiveness of these programs. In addition, contractors utilized widely distributed bulletins to
employees to increase waste diversion awareness. Paducah also noted that it had been
recognized by the U.S. Environmental Protection Agency for its environmental stewardship of
electronic assets. While we recognize these positive actions, we believe that Paducah can
improve the amount of waste diverted from landfills. Consequently, we have made several
recommendations that, if implemented, should allow Paducah to achieve synergies and improve
its contribution to the Department's waste diversion efforts.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and identified actions it has
taken or planned to take to address our report recommendations. Specifically, management
indicated that it had met with contractors and discussed the importance of demonstrating
progress towards meeting the waste diversion goals and re-emphasized its expectations regarding
the validity of waste diversion data. Further, management stated that it will re-evaluate staffing
and contractor responsibility for overseeing and coordinating activities, as well as reassess its
waste estimation procedures. We consider management's actions responsive to our report
recommendations.

Management's comments are included in their entirety in Appendix 3.

cc: Deputy Secretary
    Senior Advisor, Office of Environmental Management
    Chief of Staff
REPORT ON PADUCAH GASEOUS DIFFUSION PLANT'S WASTE
DIVERSION EFFORTS



TABLE OF
CONTENTS


Waste Diversion Efforts

Details of Finding                                  1

Recommendations and Comments                        4


Appendices

1. Objective, Scope and Methodology                 6

2. Prior Reports                                    7

3. Management Comments                              8
PADUCAH GASEOUS DIFFUSION PLANT'S WASTE DIVERSION
EFFORTS

Waste Diversion   The Paducah Gaseous Diffusion Plant's (Paducah) waste
Efforts           diversion data was not always reliable. Also, contractors had not
                  always evaluated opportunities to divert waste or implemented
                  measures recommended in waste assessments. Further, there were
                  inconsistencies or inefficiencies in the contractors' waste diversion
                  efforts.

                                         Waste Diversion Data

                  We found that Paducah's waste diversion data reported to the
                  Department of Energy (Department) had incomplete, unsupported
                  or invalid information, rendering it unreliable for determining the
                  site's progress. As with other Department sites, Paducah reports its
                  waste activities via the Department's Pollution Prevention
                  Reporting and Tracking System. The Department uses this
                  information to determine its progress towards meeting waste
                  diversion goals.

                  According to the information reported in the tracking system,
                  Paducah exceeded the 50 percent waste diversion objective.
                  However, in our review of Paducah's Fiscal Year (FY) 2010 and
                  FY 2011 reported data, we noted that the information could not be
                  relied on. For example, one contractor's waste generation, disposal
                  and diversion efforts were not included in the Department's
                  analysis for FY 2010. Another contractor, whose data was
                  included in the tracking system, could not provide support for the
                  waste information it reported. Further, we found that the amount
                  of recycled non-hazardous waste reported in the tracking system
                  data was overstated.

                  While Paducah's data reliability improved somewhat in FY 2011,
                  we still noted deficiencies. The site information did include waste
                  data for all three contractors, but we found that one Paducah
                  contractor could provide little support to validate its reported data
                  for waste generation and disposal. In FY 2011, the contractor
                  reported that it had generated and disposed of 23 metric tons of
                  waste. However, the contractor's calculation, based on container
                  size and dump rate, indicated that the waste sent to the landfill may
                  have been 76 metric tons, or more than three times the amount
                  reported in the Department's tracking system. Contractor
                  personnel stated that they did not feel comfortable with the
                  76 metric ton calculation and decided to use the prior year's
                  number of 23 metric tons. Further, we noted that a disposal rate of
                  23 metric tons had been used for the past 3 years. The contractor
                  agreed that this number might also be inaccurate and



Page 1                                                            Details of Finding
         acknowledged that it did not have an accurate method of
         measurement. As a result of our audit, the contractor has taken
         steps to address these data concerns, and stated that it will properly
         account for its waste generation in the FY 2012 reporting. While
         we recognize that there are challenges in obtaining reliable waste
         disposal data, tracking and reporting reliable data is critical
         because it is used to establish a baseline to assess and monitor the
         site's diversion efforts.

                                  Recycling Efforts

         Notwithstanding the errors in reported data, we also noted that
         contractors had not always assessed opportunities to divert waste
         from landfill disposal or, in some cases, had not implemented
         measures recommended in completed assessments. Further, in the
         absence of a single contractor managing a site-wide program, we
         noted inconsistencies and inefficiencies in the contractors' efforts.
         Maximizing waste diversion in an efficient and coordinated
         manner is critical for Paducah to meet the objectives of Executive
         Order 13514, Federal Leadership in Environmental, Energy, and
         Economic Performance.

         During our review of Paducah's recycling activities, we found that
         one contractor had not performed assessments aimed at identifying
         pollution prevention opportunities because no one had been
         assigned responsibility for performing them. These assessments
         could identify additional waste diversion opportunities and provide
         assurance that each process or waste stream is appropriately
         evaluated for potential opportunities.

         While the site's other two contractors had assessed opportunities to
         divert waste from landfill disposal, we found that they had not
         always implemented measures recommended in such assessments.
         For example, the infrastructure contractor's FY 2010 assessment
         found that plastics, cardboard and alkaline batteries were not being
         routinely recycled. The contractor did initiate battery recycling
         subsequent to the assessment; however, at the time of our review it
         had not yet begun routinely recycling plastics or cardboard.
         According to contractor personnel, the contractor did not have the
         funding needed to procure a storage trailer to collect the items, but
         was unable to provide evidence that the cost of a storage trailer
         was prohibitive when compared to the potential cost benefits of
         recycling. Additionally, we found that as part of a one-time effort
         in FY 2010, the contractor had recycled over 2,000 pounds of
         cardboard and avoided approximately $1,000 in disposal costs.
         Despite this effort, the contractor is currently disposing of
         cardboard, rather than recycling it.

Page 2                                                    Details of Finding
         While contractors had coordinated efforts to recycle several items
         including spent alkaline batteries and printer cartridges, we also
         noted inconsistencies and inefficiencies among their efforts. For
         example, two of the site's contractors informed us that printers
         were set to double-side print by default in an effort to reduce paper
         costs and minimize waste. However, the third contractor
         confirmed that printers had not been set to double-side print by
         default despite having the capability to do so. We did note that this
         contractor recycled paper via its contract with a paper shredding
         company, and had sent nearly eight tons of paper to be shredded in
         the first half of 2011. However, we believe that double-side
         printing would better align the site's actions with the Department's
         goal to reduce waste at the source. Subsequent to our fieldwork,
         the third contractor informed us that it had begun implementing
         double-side printing and would account for this effort going
         forward.

         To the credit of Paducah's contractors, we noted they had taken
         several positive actions related to waste diversion. For example,
         one contractor informed us that it is transitioning its document
         management center to a paperless process. In addition to reducing
         waste at the source, the transition should reduce the costs
         associated with purchasing materials and supplies. Further, we
         found that contractors sought to increase employee awareness
         through various means such as bulletins and handouts. Employee
         awareness is a critical component in fostering and maintaining a
         successful waste diversion program. With continued support for
         these activities and appropriate attention to the concerns noted in
         our report, Paducah should improve its waste diversion efforts.

                              Organizational Structure

         The problems identified throughout our report occurred, in large
         part, because Paducah's organizational structure was not aligned to
         fully support waste diversion. The Portsmouth/Paducah Project
         Office assigned an individual oversight responsibility for waste
         diversion activities at the site. However, we noted that this
         individual was also responsible for other high priority operational
         duties, which diminished their ability to properly oversee the
         contractors' waste diversion activities. For instance, while a
         quality assurance check was required on the data reported
         in the Department's tracking system, such checks, if performed by
         the assigned coordinator, did not prevent the data reliability
         problems we noted in this report.




Page 3                                                   Details of Finding
                   Further, the Portsmouth/Paducah Project Office had not assigned
                   one of its three contractors to assume a lead role in coordinating
                   activities, awarding recycling contracts, and ensuring
                   implementation of a consistent and comprehensive recycling
                   program. While the infrastructure contractor had been assigned
                   responsibility for janitorial services, including picking up waste
                   and recyclables for two of the site's three contractors, it had not
                   been given the authority to manage a site-wide recycling program.
                   As a result, inconsistencies existed among contractors' recycling
                   efforts.

                                                 Impact

                   Without a concerted effort, Paducah will be unable to gauge the
                   effectiveness of the site's waste diversion efforts, may miss
                   opportunities to achieve synergistic results towards meeting its
                   waste diversion goals, and will continue to send unnecessary
                   non-hazardous solid waste to the landfill for disposal.

RECOMMENDATIONS    To improve the effectiveness of Paducah's waste diversion efforts,
                   we recommend that the Manager, Portsmouth/Paducah Project
                   Office:

                       1. Ensure Paducah's organizational structure is properly
                          aligned to provide sufficient emphasis and support for the
                          waste diversion program;

                       2. Consider the benefit of assigning a single contractor
                          responsibility for coordinating waste diversion efforts at
                          the site;

                       3. Ensure the validity of waste diversion data; and,

                       4. Ensure that contractors appropriately evaluate and
                          implement waste diversion opportunities.

MANAGEMENT         Management generally concurred with the report's
REACTION AND       recommendations and identified actions it had taken or planned to
AUDITOR COMMENTS   take to address our recommendations and to demonstrate progress
                   towards meeting the waste diversion goals. In response to our first
                   recommendation, management believed that its current level of
                   support for waste diversion was appropriate, but planned to
                   evaluate staffing levels and contract requirements against projected
                   annual waste volumes. In regard to our recommendation to
                   consider assigning a single contractor responsibility for
                   coordinating waste diversion efforts at the site, management



Page 4                                         Recommendations and Comments
         commented that its current approach was the most cost-effective
         given the low volume of waste generated, but would consider a
         site-wide approach as part of future contract scopes. Additionally,
         management noted that it had taken action to improve the validity
         of waste diversion data and would evaluate its estimation
         methodology for improvement. Finally, management expressed its
         commitment to improving oversight of the contractors' programs
         and to ensuring that they are evaluating and implementing waste
         diversion opportunities.

         We recognize that Paducah must balance the goals of waste
         diversion with the requirements to maintain a cost-effective waste
         prevention and recycling program and consider planned actions to
         be responsive to our recommendations.

         Management's comments are included in their entirety in Appendix
         3 of the report.




Page 5                                                         Comments
Appendix 1

OBJECTIVE     The objective of this audit was to to determine whether Paducah
              Gaseous Diffusion Plant (Paducah) is effectively diverting
              materials from the waste stream.

SCOPE         The audit was performed from October 2011 through March 2013.
              We conducted work at Paducah in Paducah, Kentucky and
              obtained information from the Office of Health, Safety, and
              Security in Washington, DC.

METHODOLOGY   To accomplish the audit objective, we:
                  •   Reviewed laws and regulations, and policies and
                      procedures relevant to waste diversion;

                  •   Reviewed Paducah's Site Sustainability Plan;

                  •   Held discussions with Paducah Pollution Prevention
                      officials;

                  •   Interviewed key personnel at the Department of Energy's
                      (Department) Office of Health, Safety and Security; and,

                  •   Reviewed Paducah's Fiscal Year 2010 and FY 2011
                      Pollution Prevention Tracking and Reporting System
                      waste diversion entries.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objective. We believe the evidence
              obtained provides a reasonable basis for our findings and
              conclusions based on our audit objective. Because our review was
              limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We
              also assessed performance measures in accordance with the GPRA
              Modernization Act of 2010 and found the Department had not
              established performance measures related to pollution prevention.
              We conducted an assessment of computer-processed data relevant
              to our audit objective and determined that this information was
              generally unreliable.

              Portsmouth/Paducah Project Office management waived an exit
              conference on this report.




Page 6                                    Objective, Scope and Methodology
Appendix 2

                                     PRIOR REPORTS


  •   Audit Report on Y-12 National Security Complex's Waste Diversion Efforts (OAS-L-12-
      08, July 2012). Fiscal Year (FY) 2011 reports prepared by Y-12 National Security
      Complex (Y-12) management revealed that Y-12 had met the targets of Executive Order
      13514 by diverting 58 percent of its construction and demolition debris and 50 percent of
      its non-hazardous solid waste from the landfill. Further, Y-12 took action to increase its
      current waste diversion activities. In particular, Y-12 emphasized adding at least one
      new recycling stream to the recycling program each year. Although it had realized
      significant accomplishments, we found that Y -12 was facing challenges such as budget
      limitations and Department of Energy (Department) restrictions on the recycling of
      certain scrap metals.

  •   Audit Report on Oak Ridge National Laboratory's Waste Diversion Efforts (OAS-L-12-
      06, July 2012). In our review of Oak Ridge National Laboratory's (ORNL) FY 2011
      data, we found that it recycled or reused over 5,100 of its 9,500 metric tons of solid
      waste, and thus diverted it from landfill disposal. While ORNL's performance in
      FY 2011 was notable, we did find inconsistencies between planned activities and actual
      performance. For example, we found that ORNL had not conducted pollution prevention
      opportunity assessments despite the fact that the program emphasized the importance of
      such assessments in helping to identify waste diversion opportunities.

  •   Audit Report on The Department of Energy's Pollution Prevention Program (DOE/IG-
      0680, March 2005). The Department had not maintained a completely effective pollution
      prevention program. In some cases, sites did not systematically research cost-effective
      opportunities to reduce waste generation or to increase recycling/reuse of materials.
      Additionally, sites did not always implement identified cost-effective measures to reduce
      pollution.




Page 7                                                                          Prior Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
                                                                    IG Report No. OAS-M-13-01



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name                                             Date

Telephone                                        Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations


If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and
cost effective as possible. Therefore, this report will be available electronically through the Internet at
                                         the following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                        http://energy.gov/ig

     Your comments would be appreciated and can be provided on the Customer Response Form
                                    attached to the report.
